Region 5's Air Enforcement and Compliance Assistance Program

                EPA Office of Inspector General
                Region 5's Air Enforcement and Compliance Assistance Program

                                                        #6100284


                                          Table of Contents

EXECUTIVE SUMMARY

CHAPTERS

  1. INTRODUCTION

           Purpose
           Background
           Scope and Methodology
           Prior Audit Coverage

  2. COMPLIANCE ASSISTANCE ACTIVITIES NEEDED PROGRAM INFRASTRUCTURE

           Background
           ARD Compliance Assistance Activities
           Region 5's Program Needed Further Development
           Conclusion
           Recommendations and Agency Actions
           OIG Evaluation

  3. DETERRING VIOLATORS: SOME STATES NEEDED TO ASSESS THE ECONOMIC BENEFIT
     COMPONENT

           Deterring Violators by Assessing the Economic Benefit
           ARD and Michigan Assessed the Economic Benefit, While Some States Did Not
           Conclusion
           Recommendations and Agency Actions
           OIG Evaluation

  4. DETERRING VIOLATORS: MORE PUBLICITY NEEDED

           Deterring Violators Through Publicity
           Press Releases Seldom Issued for Enforcement Actions
           Conclusion
           Recommendations and Agency Actions
           OIG Evaluation

  5. ARD NEEDED TO WORK WITH STATES TO OVERCOME BARRIERS
           More Communication on Federal Cases Needed
           Enforcement Processes Were Time Consuming
           Limited Use of Injunctive Relief and Stipulated Penalties
           States May Need to Give More Oversight to Local Agencies
           Conclusion
           Recommendations and Agency Actions
           OIG Evaluation

  6. ARD ENFORCEMENT DATA WERE NOT COMPLETE OR CONSISTENT

           Background
           Data Were Not Complete
           Data Definitions Varied
           Potential Existed for Duplicate Records
           Reasons ARD and States Did Not Use AFS
           Conclusion
           Recommendations and Agency Actions
           OIG Evaluation

EXHIBITS

  1. SAMPLE SELECTION METHODOLOGY

           Audit
           Survey

  2. SUMMARY OF PENALTIES FOR SAMPLE UNIVERSES
  3. OIG AND GAO REPORTS
  4. STATE COMPLIANCE ASSISTANCE ACTIVITIES

           Indiana Five Star Recognition Program
           Illinois Clean Break Amnesty Program

  5. REGION 5 PRESS RELEASES

           Example 1
           Example 2

  6. TOP BARRIERS TO EFFECTIVE AIR ENFORCEMENT

           ARD Barriers
           Indiana Barriers
           Michigan Barriers

APPENDICES

  1. REGION 5 RESPONSE TO DRAFT REPORT
  2. ABBREVIATIONS
  3. DISTRIBUTION
